                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



June 29, 2012

Joseph J. Hoagland, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2010-13657 – DISTRIBUTOR AUDIT OF
MEMPHIS LIGHT, GAS AND WATER DIVISION



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have questions or wish to discuss our findings, please contact me at (865) 633-7373
or Richard C. Underwood, Director, Corporate Governance and Finance Audits, at
(423) 785-4824. We appreciate the courtesy and cooperation received from your staff
during the audit.




David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

SLS:DBS
Attachment
cc (Attachment):
      Micheal B. Fussell, WT 9B-K                            Ronald L. Owens, SP 3A-C
      Peyton T. Hairston, Jr., WT 7B-K                       Emily J. Reynolds, OCP 1L-NST
      Cynthia L. Herron, OCP 1F-NST                          John M. Thomas III, MR 6D-C
      Tom Kilgore, WT 7B-K                                   Van M. Wardlaw, OCP 1N-NST
      Richard W. Moore, ET 4C-K                              Robert B. Wells, WT 9B-K
      Robert A. Morris, WT 7C-K                              OIG File No. 2010-13657




      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
        
                              TVA RESTRICTED INFORMATION


                                                                                Audit Report
 
Office
      of the Inspector General                                                                                                 

                                                                     To the Senior Vice President,
                                                                     Policy and Oversight           
                                                                      
                                                                                                                               

 

 

 

 

 

DISTRIBUTOR AUDIT OF
 


MEMPHIS LIGHT, GAS
 



AND WATER DIVISION 
 

 




 

 
 
 
Audit Team                                                                                                     Audit 2010-13657
 
Stephanie L. Simmons                                                                                              June 29, 2012
Michael A. Driver
Jessica L. Monroe
Melissa M. Neusel
            WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
            distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                    is not to be further distributed without prior approval of the Inspector General or his designee. 


                            TVA RESTRICTED INFORMATION
Office of the Inspector General                                Audit Report




ABBREVIATIONS
CIS                        Customer Information System
EGC                        Enhanced Growth Credit
FY                         Fiscal Year
kW                         Kilowatt
kWh                        Kilowatt Hours
MW                         Megawatt
OIG                        Office of the Inspector General
TVA                        Tennessee Valley Authority




Audit 2010-13657

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 3
   ERRONEOUS ADJUSTMENT CAUSED UNDERPAYMENT TO TVA……...…3

   OTHER ISOLATED INSTANCES OF IMPROPER REPORTING OF
   ELECTRIC SALES AND/OR POTENTIAL DISCRIMINATION IN PROVIDING
   POWER TO CUSTOMERS .............................................................................. 4

   OTHER ISSUES ............................................................................................... 5

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 7

RECOMMENDATIONS .................................................................................. 7


APPENDICES
A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED JUNE 11, 2012, FROM DANA JEANES TO DAVID P.
   WHEELER

C. MEMORANDUM DATED JUNE 20, 2012, FROM CYNTHIA L. HERRON TO
   DAVID P. WHEELER




Audit 2010-13657

                                      TVA RESTRICTED INFORMATION
                   Audit
                   A     201
                           10-13657 – Distributor Aud
                                                    dit of
                   Memphis
                   M        Light, Ga
                                    as and W
                                           Water Division
                              EXECUTIV
                                     VE SUMM
                                           MARY

Why the
      e OIG Did This
                T    Audit

  In 20002, the Ten nnessee Va  alley Authorrity’s (TVA) Board of D  Directors
  approoved and made
                   m      available to distributors six w wholesale p power contract
  flexibility options
                    s. One of thhe options tterminated TVA’s contract authority
  and obligations
       o             regarding
                     r          distributors’
                                d             retail ratess. Four disttributors
  (Mem mphis Light, Gas and Water
                                W      Divis ion (Memphis), Knoxvville Utilitiess
  Board d, Meriweth her Lewis Electric
                               E        Coooperative, and Scottsboro Electricc
  Powe er Board) se elected thiss option. Allthough eacch of these four distrib   butors
  has thhe authorityy to determine the reta ail rates it w
                                                         will charge tto its custom
                                                                                  mers
  with limited or no o oversight by TVA, th he TVA Boa    ard did not relinquish its
  respoonsibility to ensure (1) the power purchased is sold and      d distributed d to
  the ulltimate consumer without discrim   mination among consum      mers of the e
  same e class; and d (2) no disc
                                criminatory rate, rebatte, or other special
  conce ession will be
                     b made orr given to a any consum   mer.

  The supplement
       s            tal agreeme ent between  n TVA and Memphis b     became
  effecttive in 20022. As part of
                                o our annual audit pla   an, the OIG (Office of tthe
  Inspeector Generral) included  d an audit o
                                            of the electric system of Memphiss, a
  distrib
        butor based d in Memph his, Tennesssee, for compliance w     with the TVAA
  powe er contract for
                    f the perio od January 2009 throu     ugh Decem mber 2010. Key
  contraact provisioons included d (1) prope
                                           er reporting of electric sales,
  (2) noondiscrimination in prooviding pow wer, and (3)) use of elecctric revenu ue
  for ap
       pproved purrposes. Fo   or the twelve e-month re eporting perriod ended
  June 30, 2010, Memphis
                    M         re
                               eported it provided pow    wer to apprroximately
  406,0000 customers resultin  ng in electricc sales revvenue of approximatelyy
  $1.2 billion
        b       to Meemphis. Att December 31, 2010, Memphis h         had a
  7.02 percent
        p         cas
                    sh ratio beffore actual ffiscal year 2 2011 capita
                                                                     al expendituures
  and a 1.92 perce  ent cash raatio after acttual fiscal yyear 2011 ccapital
  expen nditures, which is beloow TVA’s esstablished g     guidelines ffor adequate
  cash ratios of 5 to 8 percen nt.




                                                                                  Page i

                         TVA RES
                               STRICTED INF
                                          FORMATION
                  Audit
                  A     201
                          10-13657 – Distributor Aud
                                                   dit of
                  Memphis
                  M        Light, Ga
                                   as and W
                                          Water Division
                              EXECUTIV
                                     VE SUMM
                                           MARY

What the
       e OIG Foun
                nd

  Our audit
      a     of TVA
                 A’s power contract
                           c        with
                                       h Memphiss found:

     $3
       3.6 million underpaym
                   u         ent to TVA – An erron neous adjusstment mad
                                                                       de to
      a customer account
                   a      res
                            sulted in a $
                                        $3.6 million underpaym
                                                             ment to TVA
                                                                       A in
      Ja
       anuary 2010 0.
     Ke
       ey Contractt Provisions
                             s – We note
                                       ed some otther isolated  d instancess of
      no
       oncomplian
                nce related to the prop
                                      per reportingg of electricc sales inclu
                                                                            uding
      cu         sclassifications and a metering isssue.
       ustomer mis
     Other Contra act Provisio
                              ons – Memp phis could improve com mpliance wwith
                   ct provisions and/or M emphis’ po
      otther contrac                               olicy by (1) o
                                                                obtaining a
                                                                          and
      maintaining required
                   r         do
                              ocumentatioon and (2) increasing aaccuracy off
      co
       ontract demmand in the billing syste
                                          em.

  We also identifieed two areaas where TVVA’s oversiight of distributors sho
                                                                           ould
  be en
      nhanced. TheT two issu  ues, addresssing (1) the lack of guuidance rela
                                                                            ated
  to perrmitted exp
                  penditures and
                              a (2) the lack of a jo oint cost stu
                                                                 udy, have been
  reporrted in previous OIG distributor auudit reportss, and TVA has agreed d to
  take corrective
        c          action
                   a      on th
                              hese issuess.

What the
       e OIG Reco
                ommends

  We make
       m       10 spe
                    ecific recom
                               mmendation   ns in this re
                                                        eport that re
                                                                    equire Mem  mphis
  actionn and recom mmend TVA   A’s Senior VVice Presid dent, Policyy and Overssight,
  work with Memp    phis to resolve them. T These reco  ommendatio  ons generally
       e to (1) com
  relate           mplying withh power con ntract provissions and ((2) remedia  ating
  classification and metering issues. In addition, to    o enhance TVA’s overrsight
                    s, TVA’s Se
  of all distributors          enior Vice PPresident, P Policy and OOversight,
  shoulld address and take co   orrective acction on twoo issues ideentified at
  Memp  phis that haave been reeported in pprevious OIG distributo  or audit repports.

Memphis’ and TVA
               A Managem
                       ment’s Com
                                mments

  Mempphis and TV
                VA manage ement gene  erally agree
                                                 ed with our
  recom
      mmendationns and are taking actio
                                      ons to addrress the reccommendattions.
  See Appendix
      A        B for Memphhis’ compleete response and Appe   endix C for
  TVA’s
      s complete response.

Auditor’s Respons
                se

  The OIG
       O concurrs with the planned
                           p       acttions of Me
                                                emphis and TVA to corrrect
  the id
       dentified iss
                   sues.
                                                                               P
                                                                               Page ii

                        TVA RES
                              STRICTED INF
                                         FORMATION
Office of the Inspector General                                                                   Audit Report


BACKGROUND
Memphis Light, Gas and Water Division is a distributor for Tennessee Valley
Authority (TVA) power based in Memphis, Tennessee, with revenues from
electric sales to end-use customers of approximately $1.2 billion for the twelve-
month reporting period ended June 30, 2010. Prior to April 1, 2011,1 TVA relied
on distributors to self-report customer usage and subsequently the amount owed
to TVA (Schedule 1). Customers are generally classified as residential,
commercial, manufacturing, and lighting. Within these classes are various rate
classifications based on the customer type and usage. Table 1 shows the
customer mix for Memphis reported to TVA as of June 2010.

                           Memphis’ Customer Mix as of June 2010
                                               Number of                                     Kilowatt
        Customer Classification                                       Revenue
                                               Customers                                    Hours Sold
    Residential                                      362,030            $469,684,062         5,423,086,422
    General Power – 50 Kilowatt (kW)
                                                       35,485              79,275,714          809,694,948
    and Under (Commercial)
    General Power – Over 50 kW
                                                        8,213            593,406,041         7,610,463,008
    (Commercial or Manufacturing)
    Street and Athletic                                   121              14,664,180          100,019,614

    Outdoor Lighting2                                                       6,183,277           60,956,968

     Total                                           405,849          $1,163,213,274       14,004,220,960
                                                                                                      Table 1

TVA’s distributors are required to establish control processes over customer
setup, rate application, and measurement of usage to ensure accurate and
complete reporting to TVA. Memphis uses Banner CIS (Customer Information
System) and BillGen to establish and set up new customers, input customer meter
information, perform the monthly billing process, and maintain customer account
information. Additionally, Banner CIS and BillGen provide Memphis with the
management reporting (e.g., exception reports) designed to ensure the accuracy
and completeness of the customer invoice and the purchased power invoice
(Schedule 1) to TVA. All other accounting and finance responsibilities are
handled by Memphis, which has a
five-member Board of Commissioners who provides oversight and a President
and Chief Executive Officer and management team who manage the daily
activities. In addition to providing electric service, Memphis also (1) operates

1
     On April 1, 2011, TVA moved from distributors self-reporting customer usage to billing distributors based
     on actual energy and demand takings using meter readings from the wholesale delivery points.
2
     The “Number of Customers” represents those customers who only have Outdoor Lighting accounts at
     June 30, 2010. In addition, another 16,948 customers had Outdoor Lighting accounts as well as
     accounts for other services. However, the totals for “Revenue” and “Kilowatt Hours Sold” include both
     categories of Outdoor Lighting customers.
Audit 2010-13657                                                                                       Page 1
Audit 2010-13285                                                                                       Page 1
                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                     Audit Report


nonelectric businesses in gas and water; and (2) provides billing services,
including solid waste, sewer, storm water, fire protection, and vector (mosquito
and pest control) services, for surrounding areas.

Granting of Authority to Set Retail Rates
In 2002, TVA’s Board approved and made available to distributors six wholesale
power contract flexibility options. One of the options terminated TVA’s contract
authority and obligations regarding distributors’ retail rates. In 2002, Memphis
and TVA agreed to a wholesale power contract supplement that granted Memphis
authority to set its own retail rates. Three other distributors (Knoxville Utilities
Board, Meriwether Lewis Electric Cooperative, and Scottsboro Electric Power
Board) were also granted this authority by TVA. As a result, these four
distributors have the authority to determine the retail rates charged to their
customers with no or limited oversight by TVA. The TVA Board, however, did not
relinquish the responsibility to ensure (1) the power purchased is sold and
distributed to the ultimate consumer without discrimination among consumers of
the same class; and (2) no discriminatory rate, rebate, or other special concession
will be made or given to any consumer.

Cash Position and Rate Increases
As of December 31, 2010, Memphis had $83.8 million in cash and cash
equivalents and a 7.02 percent cash ratio3 before actual fiscal year (FY) 2011
capital expenditures. Actual capital expenditures in FY 2011 were $60.9 million,
which results in a 1.92 percent cash ratio. This is below TVA’s established
guidelines for an adequate cash reserve ratio, which ranges from 5 to 8 percent.
Table 2 shows the balance at December 31, 2010, for cash and cash
equivalents, and the corresponding cash ratios after actual FY 2011 capital
expenditures.

    Memphis’ Cash Ratio Compared to Actual FY 2011 Capital Expenditures

                                             Cash and Cash                   Reserve After
                                              Equivalents at                Actual FY 2011
                                            December 31, 2010             Capital Expenditures
         Amount                                   $83,845,198                    $22,968,454
         Cash Ratio Percentage                        7.02%                          1.92%
                                                                                                 Table 2

Discussions with Memphis management indicated its operating philosophy is
generally debt averse. Memphis described its focus as more on working capital
than cash balance and stated its goal is to maintain 45 days’ working capital.



3
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash Equivalents                                   s
                           Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2010-13657                                                                                          Page 2
Audit 2010-13285                                                                                          Page 2
                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                     Audit Report


A complete discussion of the audit objectives, scope, and methodology is
included as an Appendix.

FINDINGS
Our audit of TVA’s power contract with Memphis found:

    An erroneous adjustment to a customer account resulting in a $3.6 million
     underpayment to TVA.
    Other isolated instances of noncompliance related to the proper reporting of
     electric sales including customer misclassifications and a metering issue.
    Memphis could improve compliance with other contract provisions and/or
     Memphis’ policy by (1) obtaining and maintaining required documentation and
     (2) increasing accuracy of contract demand4 in the billing system.
    TVA’s oversight of distributors should be enhanced.

The following provides a detailed discussion of our findings.

ERRONEOUS ADJUSTMENT CAUSED UNDERPAYMENT TO TVA
While reconciling the billing data provided by Memphis to the Schedule 1 invoice,
a large discrepancy was noted for one of the GSA part 2 charge codes in
January 2010. As a result of our audit work, Memphis personnel verified an
adjustment was erroneously made to a customer’s kW demand instead of
kilowatt hour (kWh) consumption. This resulted in Memphis not reporting
331,038 kW in demand to TVA for one of the GSA part 25 charge codes in
4
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs for
    more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time known
    as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture, Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “. . . the highest average during any 30-consecutive-minute period of
    the month of the load metered in kW.”
5
    Under the General Power Rate – Schedule GSA, customers are classified based on the following
    requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer’s
        monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2010-13657                                                                                          Page 3
Audit 2010-13285                                                                                          Page 3
                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                   Audit Report


January 2010. We calculated the wholesale effect of this error to be an
underpayment to TVA of $3,601,693. According to Memphis personnel, the
monetary charges to the retail customer were calculated correctly.

Memphis informed us its current adjustment process is to review and approve the
paper copy of an adjustment prior to entering it into the billing system. Since
there is no control for verifying the adjustment was entered in the billing system
accurately, Memphis is in the process of determining what controls could be put
in place to prevent similar errors in the future.

OTHER ISOLATED INSTANCES OF IMPROPER REPORTING OF
ELECTRIC SALES AND/OR POTENTIAL DISCRIMINATION IN
PROVIDING POWER TO CUSTOMERS
Although Memphis generally complied with key contract provisions, during our
review of Memphis’ billing data, we identified other isolated instances of
noncompliance including customer misclassifications and a metering issue that
could impact the (1) proper reporting of electric sales and/or (2) ability to ensure
nondiscrimination in providing power to members of the same rate class.6 The
specific issues we found pertain to misclassified residential accounts and a lack of
documentation for the evaluation of demand meter installations when energy
usage exceeds 25,000 kWh.

Commercial Accounts Misclassified as Residential
We reviewed detailed billing data for approximately 362,000 accounts classified
under the Residential Rate – Schedule RS,7 and identified 1,187 accounts that
appeared to be potentially misclassified based on the account’s name (e.g., LLC,
Inc., Services, Properties, Corporation, etc.). From these 1,187 accounts, we
selected a judgmental sample of 65 accounts (5.5 percent) for further review. At
our request, Memphis reviewed the 65 accounts and determined 7 accounts
(10.8 percent) should have been classified under the commercial General Power
Rate – Schedule GSA. The 7 misclassified accounts were for service to locations,
which do not qualify as a single-family dwelling. Memphis reclassified the
7 accounts during the audit. The monetary impact of these misclassifications
would not be significant to Memphis or TVA. An additional 4 accounts are still
classified as residential, but Memphis has not been able to determine if this
classification is correct. Projection of the results was not appropriate because
nonstatistical sampling was used.


6
    Section 5, “Resale Rates,” subsection (a) of the power contract between TVA and Memphis states,
     “. . . power purchased hereunder shall be sold and distributed to the ultimate consumer without
    discrimination among consumers of the same class and that no discriminatory rate, rebate, or other
    special concession will be made or given to any consumer, directly or indirectly.”
7
    Under the Residential Rate – Schedule RS, customers are classified based on the following requirement:
    “This rate shall apply only to electric service to a single-family dwelling (including its appurtenances if
    served through the same meter), where the major use of electricity is for domestic purposes such as
    lighting, household appliances, and the personal comfort and convenience of those residing herein.”
Audit 2010-13657                                                                                       Page 4
Audit 2010-13285                                                                                       Page 4
                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


Metering Issue
During our review of billing agency data, we noted 4 customer accounts
classified as GSA Part 2 had energy usage in excess of 25,000 kWh but were
not measured for demand. TVA guidance, issued in February 2010, requires
distributors to evaluate the installation of a demand meter once a customer's
monthly usage exceeds 25,000 kWh. TVA recommends the evaluation indicating
the basis for the conclusions reached should be documented and maintained on
file. Under Part 2 of the GSA schedule and the Wholesale Power Rate –
Schedule WS with TVA, there would be no effect on the revenues for TVA or the
distributor unless the customer demand exceeded 50 kW. Without demand
meters in place or evidence indicating other circumstances exist that would
prevent a customer from exceeding demand of 50 kW, we could not estimate the
monetary effect or determine if these customer accounts would have exceeded
50 kW. As a result of our audit, Memphis documented its evaluation of whether a
demand meter was needed at the 4 customer locations we identified.

OTHER ISSUES
We identified two areas where Memphis could improve compliance with other
contract provisions and/or Memphis’ policy by (1) obtaining and maintaining
required documentation and (2) increasing accuracy of contract demand in the
billing system. Specifically:

   Memphis could not provide required fully executed contracts for 11 of the
    35 customer accounts tested.
   Contract demand in the billing system did not agree with the contract demand
    amount stated in the contract for 4 the 35 accounts tested.
   Memphis could not provide a required manufacturing certification for 1 of the
    2 accounts tested.
   Memphis could not provide the required documentation for 4 of the
    30 accounts receiving the Enhanced Growth Credit (EGC).

Customer Contracts Not On File
The original power contract required all customers who exceed 50 kW per month
to sign a formal contract. In 2002, Memphis was granted authority to determine
the components of its retail rates (i.e., energy usage and demand thresholds,
amounts to charge, etc.) and decided to remain with the 50 kW requirement for
customer contracts. In February 2011, TVA issued guidance to distributors
increasing the threshold for requiring a customer contract to accounts exceeding
1 megawatt (MW). The guidance also stated effective, signed contracts should be
retained in customer files for all customer accounts that meet the threshold
requirement. Each customer contract includes a contract demand that is used for
customer classification and calculating the account’s billed demand and minimum
bill. Therefore, having the required contract documentation is necessary to
support the classification assigned and the rates charged.
Audit 2010-13657                                                              Page 5
Audit 2010-13285                                                              Page 5
                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                      Audit Report


To determine compliance, we selected a random nonstatistical sample of
35 customer accounts from the 337 accounts (10.4 percent) with demand
exceeding 1 MW. We found 11 of the 35 accounts (31.4 percent) did not have
the required fully executed contract. Projection of the results was not appropriate
because nonstatistical sampling was used.

Inaccuracy of Contract Demand Information in Billing System
In our sample of 35 accounts requiring contracts, we found contract demand in
the billing system did not agree with the documented contract demand for
4 accounts (11.4 percent). Projection of the results was not appropriate because
nonstatistical sampling was used. Verifying all components applicable to an
account have been entered into the billing system accurately in accordance with
the supporting documentation is necessary to ensure each account (1) is properly
classified; (2) has energy, demand, minimum bill charges, and applicable credits
calculated correctly; and (3) receives credits as appropriate.

Required Manufacturing Certification Not On File
In our sample of 35 accounts requiring contracts, we found 1 of the 2 customers
(50 percent) receiving power under the Manufacturing Service Rate –
Schedule MSB8 did not have a manufacturing certification on file. Projection of
the results was not appropriate because nonstatistical sampling was used.
According to the MSB rate schedule, prior to initially taking any service under this
schedule, a customer shall certify to Memphis and TVA that the major use of
electricity is for activities that are classified with a 2-digit Standard Industrial
Classification (SIC) Code between 20 and 39, inclusive. Certifying and
documenting a customer meets the SIC code requirement is important to
correctly place customers within rate classifications.

Required EGC Documentation Not On File
Memphis could improve contract compliance by consistently obtaining and
maintaining required EGC documentation. According to the EGC agreement
between Memphis and TVA, the distributor shall enter into a participation
agreement with each qualifying customer. The participation agreement includes
information necessary for the credit calculation and requires the customer to sign
a certification statement outlining their eligibility to receive the credit. Memphis did
not have the required documentation on file for 4 of 30 customers (13.3 percent)
receiving the credit. Specifically, we noted 2 customers did not have certification
statements, 1 customer had an incomplete participation agreement, and
1 customer had an incomplete certification statement and an incomplete
participation agreement. The other eligibility requirements were met for these
customers.



8
    Under the Manufacturing Service Rate – Schedule MSB, customers are classified as MSB where (a) the
    customer’s currently effective contract demand is greater than 5,000 kW but not more than 15,000 kW,
    and (b) the major use of electricity is for activities conducted at the delivery point serving that customer,
    which are classified with a 2-digit Standard Industrial Classification Code between 20 and 39, inclusive.
Audit 2010-13657                                                                                          Page 6
Audit 2010-13285                                                                                          Page 6
                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Audit Report


TVA OVERSIGHT OPPORTUNITIES

We identified two areas where TVA’s oversight of distributors should be
enhanced. The two issues, addressing (1) the lack of guidance related to
permitted expenditures and (2) the lack of a joint cost study every 3 to 4 years or
when a significant change occurs in accordance with the TVA Accountant’s
Reference Manual, have been reported in previous Office of the Inspector
General (OIG) distributor audit reports. TVA has agreed to take corrective action
on these issues. A full discussion of the previously reported issues and TVA’s
planned actions can be found in prior OIG distributor audit reports9 on our Web
site, www.oig.tva.gov.

RECOMMENDATIONS
We make 10 specific recommendations in this report that require Memphis action
and recommend TVA’s Senior Vice President, Policy and Oversight, work with
Memphis to resolve them. These recommendations generally relate to
(1) complying with power contract provisions, and (2) remediating classification
and metering issues. Specifically, Memphis should address the following
recommendations associated with the findings described in the above sections of
the report.

Erroneous Adjustment Caused Underpayment to TVA

1.      Correct the underpayment to TVA of $3,601,693 related to the January 2010
        billing error.

        Memphis’ Comments – Memphis agreed with the finding and stated it is
        working with TVA to correct the underpayment on an upcoming power
        invoice. See Appendix B for Memphis’ complete response.

        TVA Management’s Comments – TVA management agreed with the
        recommendation and stated the error was identified on the wholesale bill
        and has a direct impact to TVA’s revenues. TVA management has verified
        and confirmed the underpayment amount, and this amount is expected to
        be billed to Memphis on its June 2012 invoice. See Appendix C for TVA’s
        complete response.

        Auditor’s Response – The OIG agrees with the actions planned by
        Memphis and TVA.




9
     Inspection 2008-12040 – Distributor Review of Lewisburg Electric System dated May 13, 2009; Audit
     2008-12036 – Distributor Review of City of Oxford Electric Department dated August 31, 2009.
Audit 2010-13657                                                                                   Page 7
Audit 2010-13285                                                                                   Page 7
                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


2.    Establish a process for approving and/or reviewing adjustments to customer
      accounts after they are entered into the billing system.

      Memphis’ Comments – Memphis agreed with the recommendation and
      stated the timing of the adjustment approval process will be changed from
      before input into Banner CIS to after input into Banner CIS. See Appendix B
      for Memphis’ complete response.

      TVA Management’s Comments – TVA management agreed the distributor
      should have good internal controls to verify adjustments are entered
      correctly into the system, especially as that data entry might impact TVA
      wholesale billing. TVA management understands that distributor will review
      its process to see if any improvements are needed to enter, verify, and
      approve adjustments. See Appendix C for TVA’s complete response.

      Auditor’s Response – The OIG agrees with the actions planned by
      Memphis.

Other Isolated Instances of Improper Reporting of Electric Sales and/or Potential
Discrimination in Providing Power to Customers

3.    Review remaining potentially misclassified residential accounts and
      reclassify accounts as appropriate.

      Memphis’ Comments – Memphis agreed with the recommendation and
      stated remaining potentially misclassified accounts will be reviewed, and
      appropriate corrections will be made. See Appendix B for Memphis’
      complete response.

      TVA Management’s Comments – In regards to Recommendations 3, 4,
      and 6, TVA management stated the Schedule of Rates and Charges to the
      Memphis Power Contract has not contained retail rate schedules since that
      Power Contract was amended in 2002 by a resale rate flexibility agreement.
      Therefore, TVA stated it has no legal basis for correcting these
      misclassifications except for potential discrimination in retail billing. TVA
      also stated it is aware of the corrective actions planned by Memphis in
      relation to these recommendations and, as a result, plans to take no further
      action with respect to the potential discrimination in retail billing. See
      Appendix C for TVA’s complete response.

      Auditor’s Response – The OIG agrees with the actions planned by
      Memphis.




Audit 2010-13657                                                              Page 8
Audit 2010-13285                                                              Page 8
                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


4.    Review and modify process(es) in place to identify all residential accounts
      that should be commercial and reclassify as appropriate.

      Memphis’ Comments – Memphis agreed with the recommendation and
      stated the root cause of misclassified accounts will be determined, and a
      process to correct the cause will be implemented. See Appendix B for
      Memphis’ complete response.

      TVA Management’s Comments – See TVA management’s response to
      Recommendation 3 and Appendix C for TVA’s complete response.

      Auditor’s Response – The OIG agrees with the actions planned by
      Memphis.

5.    Establish a process for documenting the evaluation of a demand meter
      installation once a customer's monthly usage exceeds 25,000 kWh.

      Memphis’ Comments – Memphis agreed with the recommendation and
      stated a process to identify customers with zero demand and consumption
      greater than 25,000 kWh will be implemented and demand meters set as
      appropriate. See Appendix B for Memphis’ complete response.

      TVA Management’s Comments – TVA management agreed the distributor
      should review customer usage greater than 25,000 kWh and install demand
      meters if needed. TVA management stated it understands that distributor
      will review its process to see if any improvements are needed to the process
      for documentation and evaluation of demand meters for customers whose
      monthly usage exceeds 25,000 kWh. See Appendix C for TVA’s complete
      response.

      Auditor’s Response – The OIG agrees with the actions planned by
      Memphis.

Other Issues

6.    Obtain and maintain properly executed, effective customer contracts for all
      customers with demand in excess of 50 kW in accordance with Memphis
      policy.

      Memphis’ Comments – Memphis stated it will evaluate requiring contracts
      only for demand in excess of 1,000 kW in accordance with TVA guidance.
      A contract repository will be established subject to annual review. See
      Appendix B for Memphis’ complete response.

      TVA Management’s Comments – See TVA management’s response to
      Recommendation 3 and Appendix C for TVA’s complete response.

Audit 2010-13657                                                               Page 9
Audit 2010-13285                                                               Page 9
                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


      Auditor’s Response – The OIG agrees with the actions planned by
      Memphis.

7.    Correct customer contract demand errors identified in the billing system
      and, at a minimum, review customer contract demand entered into the
      billing system for the remaining accounts with contract demand in excess of
      1 MW in accordance with TVA guidance. Consider reviewing customer
      contract demand entered into the billing system for contracts in excess of
      50 kW in accordance with Memphis policy.

      Memphis’ Comments – Memphis stated it will review contracts in excess
      of 1,000 kW and ensure billing data is correct. See Appendix B for
      Memphis’ complete response.

      TVA Management’s Comments – TVA management agreed the distributor
      should have good internal controls to verify data is entered correctly into the
      system, especially as that data entry might impact TVA wholesale billing.
      TVA management stated it understands that distributor will correct contract
      demand for contracts in excess of 1,000 kW in accordance with the OIG
      minimum review recommendation. See Appendix C for TVA’s complete
      response.

      Auditor’s Response – The OIG agrees with the actions planned by
      Memphis.

8.    Review and modify the process for entering customer contract demand into
      the billing system to verify the contract demand value in the system agrees
      with the customer’s contract.

      Memphis’ Comments – Memphis stated a process will be developed to
      ensure contract demand in Banner CIS matches the contract demand in the
      customer’s contract. See Appendix B for Memphis’ complete response.

      TVA Management’s Comments – TVA management agreed the distributor
      should have good internal controls to verify data is entered correctly into the
      system, especially as that data entry might impact TVA wholesale billing.
      TVA management stated it understands that distributor will develop a
      process to ensure contract demand in the billing system matches the
      customer’s contract demand. See Appendix C for TVA’s complete response.

      Auditor’s Response – The OIG agrees with the actions planned by
      Memphis.




Audit 2010-13657                                                              Page 10
Audit 2010-13285                                                              Page 10
                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


9.    Obtain and maintain required documentation for customers served under
      the manufacturing rates.

      Memphis’ Comments – Memphis stated a contract repository will be
      established, subject to annual review. See Appendix B for Memphis’
      complete response.

      TVA Management’s Comments – TVA management agreed with the
      recommendation and stated it understands that distributor will work with the
      customers to ensure appropriate certifications are obtained from the
      customer and retained on file. See Appendix C for TVA’s complete
      response.

      Auditor’s Response – The OIG agrees with the actions planned by
      Memphis.

10. Obtain and maintain required documentation for customers receiving credits
    under the TVA EGC program.

      Memphis’ Comments – Memphis stated a contract repository will be
      established, subject to annual review. See Appendix B for Memphis’
      complete response.

      TVA Management’s Comments – TVA management agreed with the
      recommendation and stated it understands that distributor will work with the
      customers to ensure appropriate certifications are obtained from the
      customer and retained on file. See Appendix C for TVA’s complete
      response.

      Auditor’s Response – The OIG agrees with the actions planned by
      Memphis.




Audit 2010-13657                                                            Page 11
Audit 2010-13285                                                            Page 11
                                  TVA RESTRICTED INFORMATION
                                                                          APPENDIX A
                                                                           Page 1 of 3

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was included in our annual distributor audit plan based on our review
of several factors including the distributor’s percentage of electric sales revenue,
cash ratio, joint operations, SAS 70 review results, and surplus ratio. The
objective was to determine compliance with key provisions of the power contract
between the Tennessee Valley Authority (TVA) and Memphis Light, Gas and
Water Division and not to assess the distributor’s or TVA’s system of internal
controls. Therefore, controls associated with contract provisions listed below
were not tested as part of this audit. The key contract provisions include:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period and created a database
    for use in performing analytical testing. To validate the reliability of the billing
    data, we compared the data to the information reported to TVA on the
    Schedule 1. Based on our comparisons, we concluded the data provided for
    2010 appeared to be sufficient for our analytical testing.
   Performed queries on the billing data to identify classification, metering, and
    contract compliance issues. We reviewed results of the queries and where
    possible exceptions were identified, selected accounts for further analysis and
    follow-up to determine whether misclassification, metering issues, or
    noncompliance with contract requirements occurred. Where large numbers of
    potential exceptions were identified, we selected accounts for further analysis
    and follow-up using nonstatistical samples. Projection of the results was not
    appropriate because nonstatistical sampling was used.
    – When performing our analysis of residential accounts, we used the
        detailed billing data and:
         Isolated accounts classified as residential that contained words in the
          account name commonly used to refer to business entities (e.g., LLC,
          partner, Inc., etc.). As a result of this review, we identified
          1,187 possible exceptions from the population of 362,000 residential
          accounts. Due to the number of potential exceptions identified, we
          judgmentally selected a nonstatistical sample of 65 (5.5 percent)
          accounts to have distributor personnel review for accurate classification.



                             TVA RESTRICTED INFORMATION
                                                                      APPENDIX A
                                                                       Page 2 of 3

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
         Ran an automated query to identify any physical locations with multiple
           meters classified as residential at the location. Our analysis identified
           1,450 residential meters from the population of approximately
           362,000 residential accounts. We assigned numbers to the
           1,450 locations and used a random number generator to select a
           nonstatistical sample of 35 meters (2.4 percent) for additional review
           and follow up with the distributor.
    –   When reviewing general schedule accounts, we used the detailed billing
        data obtained from the distributor and isolated 337 accounts with contract
        demand values in the billing system exceeding 1000 kW. We assigned
        numbers to the 337 locations and used a random number generator to
        select a nonstatistical sample of 35 locations (10.4 percent) for additional
        review and follow up with the distributor.
   Determined through inquiry and review of documentation whether Memphis
    had any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listing for the audit period and categorized the
    disbursements by vendor name. We reviewed and analyzed disbursements
    to identify instances where electric system funds may have been used for
    purposes not allowed under the TVA power contract. We judgmentally
    selected a sample of 970 vendor names based on the vendor name and/or
    payment amounts. We focused on names that (1) had nonelectric service in
    the title, e.g., water, gas, etc.; (2) could require allocation between multiple
    service departments, e.g., advertising, fuel, consultants, legal, etc.;
    (3) possibly should not have been paid from electric funds, e.g., community
    assistance, charitable contributions, economic development, etc.; (4) were
    paid to employees or board members. We focused on payment amounts
    where (1) singular large payments were made to one entity or (2) the
    payments in total were considered large either by themselves or compared to
    total disbursements for the audit period. We then selected 108 individual
    transactions from the list of 970 vendor names and reviewed the detailed
    documentation. Projection of the results was not appropriate because
    nonstatistical sampling was used.
   Reviewed cash and cash equivalents in relation to actual capital expenditures
    and other business uses of cash.

When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit, the quantitative factor(s) to be considered in determining
an item’s significance were:

   If the dollar value of an error(s) and/or item of noncompliance with the
    contract exceeds 3 percent of the distributor’s average annual power cost
    during the audit period, or $ 30,034,035, it would be considered significant.

                             TVA RESTRICTED INFORMATION
                                                                       APPENDIX A
                                                                        Page 3 of 3

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
   In respect to the distributor’s unapproved use of revenues, we consider the
    following to be significant.
    – A negative cash ratio results after subtracting the distributor’s funds at risk
        during the audit period (loans extended or debts guaranteed with electric
        revenues) from the cash and cash equivalents balance at the end of the
        audit period.
    – Amounts expended by the electric department on behalf of a nonelectric
        department/operating unit during the audit period (without payback from
        the nonelectric department) exceed the rate increase amounts approved
        by TVA during the audit period.

The scope of the audit was for the period January 2009 through December 2010.
Fieldwork was conducted between November 2011 and May 2012 and included
visiting the distributor’s corporate office in Memphis, Tennessee. This
performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                            TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 3 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX C
                              Page 1 of 4




TVA RESTRICTED INFORMATION
                             APPENDIX C
                              Page 2 of 4




TVA RESTRICTED INFORMATION
                             APPENDIX C
                              Page 3 of 4




TVA RESTRICTED INFORMATION
                             APPENDIX C
                              Page 4 of 4




TVA RESTRICTED INFORMATION
